     FAA FACES SIGNIFICANT RISKS IN
IMPLEMENTING THE AUTOMATIC DEPENDENT
SURVEILLANCE – BROADCAST PROGRAM AND
          REALIZING BENEFITS

        Federal Aviation Administration
         Report Number: AV-2011-002
         Date Issued: October 12, 2010
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Faces Significant Risks in                                       Date:    October 12, 2010
           Implementing the Automatic Dependent
           Surveillance – Broadcast Program and
           Realizing Benefits
           Federal Aviation Administration
           Report Number AV-2011-002

  From:    Lou E. Dixon                                                              Reply to
                                                                                     Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) Automatic Dependent Surveillance-Broadcast (ADS-B)
           program. 1 ADS-B is a satellite-based surveillance technology that also uses
           aircraft avionics and ground-based systems to provide information on aircraft
           location to pilots and air traffic controllers. ADS-B has the potential to
           fundamentally change the way air traffic is managed in the United States, and
           FAA expects that it will enhance capacity, improve safety, and play a critical role
           in the planned transition to the Next Generation Air Transportation System
           (NextGen).

           At the request of the Chairmen of the House Committee on Transportation
           Infrastructure and Subcommittee on Aviation, we examined FAA’s plans for
           implementing ADS-B. Specifically, our objectives were to (1) examine key risks
           to FAA’s successful implementation of ADS-B and (2) assess the strengths and
           weaknesses of FAA’s contracting approach. This report summarizes our
           assessment of FAA’s progress to date and provides our recommendations for
           reducing risk in developing and deploying ADS-B technology and strengthening
           contract oversight. We conducted this audit in accordance with generally accepted
           government auditing standards prescribed by the Comptroller General of the
           United States. Exhibit A details our scope and methodology.

           1
               ADS-B is “automatic” because no external interrogation is required and is “dependent” because it relies on
               equipment on board aircraft to transmit flight information to controllers and pilots.
                                                                                                                    2


RESULTS IN BRIEF
FAA is making progress in implementing ADS-B at limited locations and working
with airspace users to refine the use of the new technology. However, FAA’s
plans to deploy ADS-B throughout the National Airspace System (NAS) and
realize expected benefits face significant risks and challenges.

The greatest risks to successfully implementing ADS-B are airspace users’
reluctance to purchase and install new avionics for their aircraft and FAA’s ability
to define requirements for the more advanced capabilities. Users have raised
justifiable concerns about evolving requirements and uncertain equipage costs and
benefits. For example, based on FAA’s analysis, the costs for users to equip with
ADS-B avionics could range from $2.5 billion to $6.2 billion. Moreover, while
FAA is planning to mandate equipage for “ADS-B Out” by 2020, it plans to
initially provide ADS-B surveillance information that essentially replicates
existing domestic radar coverage—resulting in few new benefits to airspace users.
Most new capabilities and benefits, such as enhancing airspace capacity, rely on
“ADS-B In” and the display of information in the cockpit. 2                However
requirements and costs for ADS-B In may not be mature for at least 2 years. FAA
also has yet to fully define requirements for modifying its existing automation
systems that will display ADS-B information to controllers. Problems with
integrating ADS-B on displays at the initial operating sites indicate this will be a
significant challenge to nationwide deployment. Until FAA effectively addresses
these uncertainties associated with equipage and requirements for ADS-B’s
advanced capabilities, progress with ADS-B will be limited, and the potential for
cost increases, delays, and performance shortfalls will continue.

In addition to implementation issues that may delay deployment, risks within
FAA’s acquisition and contract approach for ADS-B could also increase the
overall program cost. Specifically, while FAA’s contract includes controls and
analytical tools to measure progress with cost and schedule baselines, FAA did not
conduct a comprehensive financial analysis before deciding that a service-based
contract would save the Government more money than the traditional method of
owning and operating the system. In fact, only months after it briefed Congress
that this approach would save the Government $821 million, FAA revised its
estimated cost savings to $628 million. FAA’s data show that if the Agency had
owned the system through the first phase of ADS-B (establishing ground
infrastructure), the Government could have saved over $600 million in that phase
alone. FAA officials acknowledge that the analysis used to justify the service-
based approach and cost savings was flawed but asserted that over the long term,

2
    “ADS-B Out” allows aircraft to broadcast more accurate flight position data to controllers on the ground.
    “ADS-B In” will allow for display of key flight information in the cockpit, such as allowing pilots to “see” other
    aircraft.
                                                                                                                3


the cost-benefit equation changes in favor of the contractor owning and operating
the system. Yet, FAA has not updated its cost and benefit analysis to support the
service-based approach. FAA will also pay the contractor over $1 billion for
broadcast services—before airspace users are required to equip in 2020 and
congested airports see significant delay reductions. The contractor will be paid
regardless of whether important efforts, such as modifying controller displays,
remain on track. Moreover, there are unresolved questions with the contract that
could increase the cost of the ADS-B ground system. For example, the contract
does not have specific estimates for providing ADS-B In services to aircraft that
will rely on different broadcast frequencies. Unless FAA addresses these
concerns, the larger risk of minimal return on Federal investment and indefinite
delays in achieving NextGen goals remains. We are making recommendations to
help FAA reduce risk with ADS-B implementation and enhance contract
oversight.

BACKGROUND
According to FAA, ADS-B will supplement and ultimately replace ground-based
radar because an ADS-B-equipped aircraft can provide controllers and pilots in
other aircraft with faster updates of important flight information (e.g., aircraft
identification, position, altitude, direction, and speed). Specifically, ADS-B
transmits position information once per second, whereas radar systems in the
vicinity of airports generate reports once every 4 to 5 seconds. Also, unlike radar,
the accuracy of ADS-B does not change based on the distance between the aircraft
and the sensor. In 1998, FAA began examining ADS-B as an alternative to radar
at several locations, including Alaska and the Ohio River Valley.

In 2007, FAA awarded a contract to ITT Corporation for $1.8 billion—if all
options are exercised through 2025—to develop and deploy the ADS-B ground
infrastructure and start broadcasting services. FAA plans to implement ADS-B in
two segments. Segment 1 (establish ground infrastructure for five key sites) is
contracted under a cost-plus incentive fee agreement in which FAA covers the cost
for any additional requirements. 3 Segment 2 (equipment needed to fully deploy
ADS-B nationwide) is contracted under a fixed-price arrangement in which ITT
covers the cost of deploying enough radios to meet requirements. FAA approved
nearly $1.7 billion in capital costs through 2014, to support ADS-B
implementation. FAA is planning to spend just over $200 million in fiscal year
(FY) 2010. The total life-cycle cost through 2035 of the ADS-B effort is uncertain
but estimated to be about $4.0 billion—this includes $2.3 billion in capital costs
not yet formally “baselined.” The following figure illustrates FAA’s spending
plans for ADS-B for the next 5 years.

3
    Miami, Florida; Louisville, Kentucky; Philadelphia, Pennsylvania; the Gulf of Mexico; and Juneau, Alaska.
                                                                                            4


                        Figure. ADS-B Spending Plan FY 2010 to FY 2014
                                            (Dollars in Millions)
               $300.0
                                                      $284.2
                                                                    $270.7
                                                                                  $256.9
               $250.0


                         $201.4
               $200.0
                                        $175.2


               $150.0



               $100.0



                $50.0



                 $0.0
                         FY 2010        FY 2011       FY 2012       FY 2013       FY 2014


              Source: FAA’s 2010 budget enacted and Capital Investment Plan 2010-2014

A key ADS-B priority is its air-to-air applications—this technology is a major step
in the NextGen transition and a primary benefit expected by airspace users. In FY
2008 and FY 2009, Congress provided more funding than FAA requested to
specifically advance these ADS-B capabilities. Congress has shown significant
support for the ADS-B program overall since its inception in 2007, with
$510 million provided during the first 3 years of the program.

In October 2007, FAA published a Notice of Proposed Rule Making (NPRM) for
ADS-B outlining a mandate for airspace users to equip with new avionics for
ADS-B “Out” by 2020. The NPRM was issued after review by FAA’s
industry/Government Aviation Rulemaking Committee (ARC).               The ARC
recommended key actions FAA must take to increase user equipage. These
include approving ADS-B-based aircraft separation standards that meet current
ones and expediently deploying ADS-B where reduced separation standards will
offer users the most value. The proposed rule generated considerable debate
among stakeholders who expressed concerns about undefined costs, benefits, and
technical requirements. Based on public comments, FAA asked the ARC for
additional recommendations. In 2008, the ARC made 36 recommendations,
including studying frequency congestion concerns, adjusting ADS-B standards
and requirements, and incentivizing airspace users to equip with new systems. 4

The ARC cautioned that FAA should delay the proposed 2020 date for ADS-B
equipage if ground station coverage, automation systems improvements, and
4
    Report from the ADS–B Aviation Rulemaking Committee to the FAA, September 26, 2008.
                                                                                                           5


controller training slip beyond 2013. Based on industry comments, FAA adjusted
its plans for ADS-B and issued the final rule in May 2010.

ADS-B IMPLEMENTATION FACES A WIDE RANGE OF RISKS
THAT WILL IMPACT COSTS AND EXPECTED BENEFITS
FAA is in a difficult position with ADS-B because it is managing the parallel
development and implementation of the air and ground components of a new
satellite-based technology. Implementing ADS-B is a high-risk, complex
undertaking that will require coordinated, billion-dollar investments from FAA
and industry over the next decade. Our review identified the following five major
risks that will have a direct bearing on the cost, schedule, and expected benefits of
ADS-B: airspace users’ reluctance to equip, changing requirements and
controller/pilot procedures for ADS-B In technologies, frequency congestion
affecting ADS-B broadcasts, delays in integrating ADS-B with air traffic
management systems, and potential security vulnerabilities.

Airspace Users Are Reluctant To Equip with ADS-B Due to Undefined
Costs and Benefits
Airspace users have raised legitimate questions about the costs to equip aircraft,
evolving requirements for ADS-B In, and a lack of clearly defined benefits for
enhancing capacity and reducing delays. FAA considers their concerns as a major
risk to the successful implementation of ADS-B. Skepticism in the aviation
community is largely due to prior experiences with other FAA programs, and
users are concerned that ADS-B could become another situation where they equip
with a new technology but FAA never follows through with the requisite ground
infrastructure. For example, FAA cancelled a Microwave Landing System in the
1990s because of industry concerns and opposition. More recently, in 2003, FAA
cancelled the Controller-Pilot Data Link Communications Program due to
uncertain benefits, technical problems, and cost growth issues. 5 As a result, FAA
faces difficult challenges in determining how to move forward with ADS-B and
spur airspace users to purchase and install new avionics.

ADS-B equipage cost estimates for airspace users vary widely. FAA’s
equipage estimates reflect considerable uncertainty and require further refinement.
FAA estimates that the aggregate cost for airspace users to equip with ADS-B
avionics could range from $2.5 billion to $6.2 billion. In addition, these estimates
generally exclude the cost associated with taking transport aircraft out of service to
install new technology. As shown in table 1, estimated unit costs to equip aircraft
also vary significantly.

5
    OIG Report Number AV-2004-101, “Observations on FAA’s Controller-Pilot Data Link Communications Program,”
    September 30, 2004. OIG reports are available on our website: www.oig.dot.gov.
                                                                                                                  6


                Table 1. Unit Cost Estimates for Equipping Aircraft with ADS-B
                                                                      ADS-B Out                     ADS-B In

    Airspace User             Technology                          Low            High            Low       High
    Air Transport Aircraft    1090 MHz Extended Squitter         $32,000       $174,640        $162,250   $670,000
                              Universal Access
    General Aviation                                             $7,644        $10,920         $10,444    $29,770
                              Transceiver (UAT ) 978 MHz
Source: OIG analysis of data from FAA’s Surveillance and Broadcast Services

Several factors can affect the equipage cost estimates. These factors include
aircraft age and type, the broadcast link airspace users decide to purchase, and the
services users expect to obtain. One of the primary variables for ADS-B cost
estimates is whether airspace users need other new avionics or upgrades to
existing aircraft systems. For example, some users may be required to purchase:

    • new or upgraded Global Positioning System (GPS) receivers or flight
      management system for aircraft. This will depend on the performance level of
      their current aircraft navigation systems.
    • avionics for the Wide Area Augmentation System—a satellite-based
      navigational system—to augment the GPS signal according to FAA standards.
    • new ADS-B avionics, in addition to those previously installed, to comply with
      updated standards in FAA’s recently issued ADS-B rule. While all new
      aircraft being produced by Airbus and Boeing will be able to broadcast ADS-B
      without modification, other large, commercial aircraft equipped with the 1090
      ES 6 alternative may not be compliant with the proposed rule.

Evolving requirements for “ADS-B In” make it difficult for FAA to develop cost
estimates for users to equip with this technology—which will add new cockpit
displays capable of displaying traffic information. FAA expects that once airspace
users have invested in ADS-B Out as mandated, they will then voluntarily equip to
realize the additional capabilities of ADS-B In (see table 2 below). However,
ADS-B In is still in its early stages, and requirements for the full range of its
applications envisioned in planning documents continue to change. FAA has
established groups to develop a strategy for ADS-B In, including an ARC and a
Steering Committee, but without mature requirements, reliable cost estimates, and
defined benefits to offset those costs airlines are unlikely to expend resources to
further modify aircraft. Further, because FAA adopted less stringent performance
standards with the recently published rule in May 2010, airspace users may have
to equip multiple times to take full advantage of ADS-B In capabilities.



6
     Air Transport Aircraft transponders operate using 1090 MHz Extended Squitter (1090 ES).
                                                                                           7


                         Table 2. Anticipated Benefits of ADS-B

       ADS-B “Out”
       Allows aircraft to broadcast position and other flight data to ground systems for
       en route, terminal, and surface operations
       • Enables more accurate data on aircraft position than current radar
       • Provides surveillance coverage where radar coverage is limited or non-
         existent
       • Yields cost savings from decommissioning secondary surveillance radar
       ADS-B “In”
       Requires new cockpit displays; allows aircraft to receive and display air traffic
       information in the cockpit
       • Provides the above benefits, plus others, such as enhancing capacity at
         congested airports under all weather conditions
       • Enables air to air applications that could change current air traffic control
         concepts
      Source: OIG analysis of RTCA staff paper and FAA’s benefits analysis

FAA faces challenges in quantifying and delivering ADS-B benefits for
airspace users. The question of benefits—and what it will take to obtain them—
will drive the transition to ADS-B. In the near term, ADS-B will not provide
capacity benefits or relief from delays at many of the Nation’s most congested
airports. This is because the first stage of ADS-B implementation will be limited
to specific geographic locations, including select airports on the East Coast, such
as Philadelphia and Miami, and airports where existing radar coverage is limited,
such as Alaska and the Gulf of Mexico.

Thus far, ADS-B has been beneficial in areas with limited radar coverage; for
example, it has proven valuable in search and rescue missions. FAA and the
industry expect to see tangible benefits from ADS-B in the Gulf of Mexico from
reduced separation between aircraft (from 50 to 5 nautical miles). However, FAA
still faces the challenges of quantifying and delivering the benefits from ADS-B in
the continental United States where radar coverage exists and determining how to
use new procedures to enhance capacity and reduce delays in congested airspace.

In the near term, however, FAA expects ADS-B Out to provide “radar-like”
separation services. Coupled with new automation, this could allow for more
efficient merging and spacing of air traffic within existing separation standards
and improve detection of conflicts between aircraft. However, FAA has yet to
fully quantify related benefits—such as enhanced controller productivity and more
efficient management of the airport surface—and validate that ADS-B will meet
or exceed the current level of separation services. To achieve these goals, FAA
must effectively develop, certify, and implement the new procedures needed to
separate aircraft at high capacity locations through the NAS based on ADS-B
information. These procedures include significant changes to existing automation
systems, such as new tools for controllers. In the longer term, industry officials
                                                                                                                     8


point out that ADS-B will be key to enhancing capacity but must be integrated
with other NextGen initiatives (e.g., 4D trajectory management and data link
communications for controllers and pilots). 7

Due to industry concerns about whether ADS-B can provide equivalent separation
services, FAA sponsored research and modeling that examined the use of radar
and ADS-B targets for separating air traffic. 8         The studies show that
ADS-B should be able to provide surveillance that is at least as good as radar if
not better. However, automation systems will need to compensate for differences
in ADS-B and radar with respect to update and error rates that will in turn provide
controllers with reliable information. Table 3 identifies the existing criteria for
separating aircraft that ADS-B must meet. The most stringent criteria focus on
4,300-foot spacing on parallel, independent approaches.
                Table 3. ADS-B Required To Meet Existing Separation Criteria
                                                                             Separation Range
                 Existing Aircraft Separation Criteria
                                                                              (in nautical miles)
                 En Route Environment                                                  5.0

                 Terminal Environment                                                  3.0

                 Approach                                                              2.5

                 Staggered, Dependent Approach                                         1.5

                 Parallel, Independent Approaches                                  4,300 feet
              Source: FAA’s Surveillance and Broadcast Services Briefing: Report on Modeling
              Results for Separation Standards with ADS-B

FAA is testing ADS-B’s ability to manage and separate traffic at the key sites.
However, a critical question remains open—whether ADS-B could allow a
reduction in existing separation standards. FAA is examining whether separation
standards at high altitude could be safely reduced from 5 to 3 miles, which could
lead to significant benefits for airspace users.

FAA faces important policy questions regarding incentives to spur ADS-B
equipage. Given ADS-B’s wide-ranging cost estimates and undefined benefits,
many within the aviation community (i.e., airspace users and avionics
manufacturers) and FAA believe that incentives will be required to help spur
aircraft equipage. As stakeholders point out, there is a precedent for helping
airspace users equip specifically with ADS-B avionics. FAA purchased ADS-B
avionics for operators in Alaska as part of the Capstone initiative. This provided

7
    4D trajectory management is an automation system that will rely on advanced software to assign and monitor flights.
8
    Report on Modeling Results for Separation Standards with ADS-B, August 29, 2007. This research was performed
    by the Massachusetts Institute of Technology/Lincoln Labs, the Johns Hopkins University/Applied Physics
    Laboratory, and the Mitre Corporation.
                                                                                9


FAA with a base of properly equipped aircraft and allowed the Agency to examine
the costs and benefits of the new technology.

Our work shows that incentives for ADS-B deployment could take a number of
forms. These include purchasing equipment for operators, an investment tax
credit, an adjustment to current excise taxes for ADS-B-equipped aircraft, or
research and development tax credits specifically for avionics manufacturers. In
2008, the ARC’s report called for FAA to establish agreements with operators,
subsidize the purchase and installation of new avionics, and accelerate ADS-B
deployment at designated locations.       FAA has since established several
agreements with airlines and avionics manufacturers and purchased equipment for
some airspace users.

FAA has never managed such a large effort to equip commercial aircraft.
Therefore, the aviation community will need a clear understanding of what the
incentives would be used for as well as their strengths and weakness, timing, and
potential impacts. Cost sharing mechanisms have merit because they help share
risks between the Government and airspace users. If FAA does use equipage
incentives, it must properly design them to achieve objectives at minimal cost to
taxpayers.

Requirements for ADS-B In and Cockpit Displays Continue To Evolve
and Will Influence Pilot and Controller Roles
Most new capabilities and benefits in FAA’s plans to enhance capacity through
NextGen rely on “ADS-B In” and the display of information in the cockpit.
According to airspace users, without ADS-B In’s cockpit capabilities and related
air-to-air applications, ADS-B will provide insufficient benefits. However, FAA
has not yet certified the type of cockpit display (in the pilot’s forward field of
view) needed to achieve ADS-B In capabilities due to safety concerns.

Once FAA certifies the cockpit display, airlines must either install new ones or
modify their existing displays. However, since FAA has yet to clearly define
ADS-B In requirements or estimated costs and benefits, it will be difficult to get
users to equip. An aviation industry expert from Boeing pointed out that the
effectiveness of cockpit displays depends on large numbers of aircraft being
equipped; otherwise the display might be hazardous as it would give pilots a sense
of confidence that should not be expected. Table 4 below illustrates how ADS-B
and cockpit displays can enhance situational awareness and help fundamentally
change how air traffic is managed when the display is in the pilot’s forward field
of view.
                                                                                            10


                     Table 4. Anticipated Capabilities of ADS-B In

       Situational Awareness
       Enhances the flight crew’s knowledge of traffic both in the air and on the ground,
       thus improving their decision process for the safe and efficient management of
       flight. No changes in separation tasks or responsibility are required.

       Spacing
       Flight crews are responsible for spacing with designated aircraft in response to
       Air Traffic Control instruction. The separation minima are unchanged, and
       separation responsibility remains with controller.

       Delegated Separation
       The controller delegates separation responsibility to the flight crew for specific
       aircraft during certain operations.

       Self Separation
       The flight crew is responsible for separation to a given minima from all other
       traffic for the duration of any particular phase of flight.
      Source: FAA’s Surveillance and Broadcast Services Program Office, December 2007

We found that FAA faces considerable work to establish requirements and
standards for ADS-B In. In its September 2008 report, the ARC recommended
that FAA, in partnership with industry, define a strategy for ADS-B In by 2012.
According to ADS-B program officials, they will define ADS-B In requirements
and benefits through multiple workgroups and a new ARC, which is slated to
begin work this summer. FAA also states that it has established a workgroup to
conduct research and analysis on high-value advanced ADS-B In applications.
According to FAA, the criteria for some of the more demanding ADS-B In
applications should be completed by 2012. However, FAA’s decision to adopt
less stringent performance requirements in the recently published final rule for
ADS-B may further slow progress to transition to ADS-B In capabilities.

Given that most benefits users anticipate rely on ADS-B In, FAA must obtain
some consensus with industry on the specific applications it plans to consider.
FAA has—and continues—to work with airspace users to refine ADS-B In
applications and requirements. For example, the United Parcel Service (UPS) has
been instrumental in pioneering ADS-B and the first generation of cockpit display
applications for enhanced “see and avoid” capabilities. FAA is also providing
$6 million to assist US Airways and an avionics manufacturer to equip up to
20 Airbus aircraft, with the goal of assessing the economic and operational value
of ADS-B at Philadelphia’s airport and on some transatlantic flights.

Finally, the full potential of ADS-B In will require consideration of human factors,
such as new procedures for pilots and controllers. As FAA officials point out, the
Agency must conduct rigorous safety assessments to ensure changes do not impact
                                                                                                                  11


safety or introduce new hazards. Therefore, FAA needs to prioritize efforts,
examine sequencing of capabilities, and resolve the display requirements,
including human factors considerations for both pilots and controllers.

Frequency Congestion Concerns for the Broadcast of ADS-B for
Transport Aircraft Could Limit Its Air-to-Air Benefits
The frequency planned for ADS-B broadcasts to large commercial carriers could
become overcrowded when FAA adds ADS-B signal traffic. Currently, FAA and
airspace users rely on the same frequency for other important systems, such as
ground-based secondary radar, runway incursion systems, and aircraft collision
avoidance systems. There is concern that the broadcast of ADS-B could cause
signal interference problems with these systems. This is one reason that FAA
decided to rely on two separate frequencies 9 for ADS-B and the contractor decided
to increase the number of ground radio stations from 500 to 794.

Frequency congestion could particularly impact ADS-B usage in high-density
airspace, such as the Northeast Corridor (e.g., Washington, DC, and New York).
As FAA expands ADS-B implementation between 2020 and 2035, problems with
signal interference could increase and occur around more major airports across the
country, such as Chicago, Los Angles, Dallas Forth Worth, and Atlanta. Unless
FAA mitigates this problem, the number and type of air-to-air applications for
ADS-B In will be limited due to the reduced range—or distance—of the
ADS-B In signal. Table 5 illustrates the expected requirements for some of the
planned uses of the ADS-B In signal.




9
    FAA will implement ADS-B via two separate broadcast links that will operate at one of two frequencies—
    1090 megahertz (MHz) for air carrier and commuter fleets and 978 MHz for air taxi and general aviation fleets. The
    978 MHz band has more available bandwidth and can therefore provide graphic weather information and other
    data—a service needed by non-commercial fleets that do not communicate with airline dispatchers.
                                                                                                                    12


Table 5. Minimum Aviation System Performance Standards for ADS-B In

                                                                                     Range
                Minimum Performance Standards
                                                                               (in nautical miles)
          •   Enhanced Visual Acquisition
                                                                                        10
          •   Conflict Detection
          •   Station Keeping
                                                                                        20
          •   Airborne Conflict Management
          •   Merging
          •   Conflict Management                                                       40
          •   In-Trail Climb
          •   Long Range Conflict Management                                   90 (desired - 120)
         Source: Report from the ADS-B Aviation Rulemaking Committee to the Federal Aviation Administration,
         September 26, 2008.

The frequency congestion problem is complex, but a number of techniques, such
as multi-sector aircraft antennae and additional ADS-B ground stations could help
ensure adequate air-to-ground and air-to-air reception. However, solutions to
address frequency congestion may require changes to the ADS-B baseline or
equipment on aircraft, which would increase the program cost. Currently, FAA
does not plan to make changes until 2020 when airspace users are required to
purchase and install ADS-B equipment. The ARC recommended that FAA study
the issue of congestion and consider the mitigation efforts needed to ensure a 45-
nautical mile range for ADS-B In applications. In response, FAA is examining
potential solutions and exploring the specific changes needed for ADS-B air and
ground components and existing systems (including airborne traffic collision and
avoidance systems). 10

Integrating ADS-B with FAA’s Existing Automation Systems for
Controllers Could Delay Its Implementation
Before FAA can implement ADS-B nationwide, it will need to modify the
automation systems controllers use to separate aircraft. Currently, most of these
systems—in both the terminal and en route environments—do not process and
display ADS-B information. FAA will also need to adjust the format of flight
plans to properly identify ADS-B-equipped aircraft. Without these changes, users
will be unable to operate ADS-B air traffic surveillance applications. FAA has
elevated this issue to high risk, and the ADS-B program office is providing
$150 million in Segment 1 to other FAA lines of business to modify their
respective automation systems.

FAA is testing ADS-B information on controller displays at key sites but has
experienced a number of problems and limitations. For example, FAA has

10
     According to FAA documents, realizing the air-to-air performance of ADS-B in the long term may depend on a
     replacement of ground radars or other technology (i.e. passive multilateration) and modifying the Traffic Collision
     and Avoidance System to exploit ADS-B signals.
                                                                                                       13


experienced problems with integrating ADS-B on controller displays at Louisville,
Kentucky. Controllers report that ADS-B targets (i.e., the location of aircraft on
their display screens) split or drift, causing false alerts; therefore, controllers often
opt to limit their ADS-B usage. However, as noted in FAA test reports,
assessments at this point do not fully reflect the ADS-B end-state because there is
a limited number of properly equipped aircraft and no approved standards for
ADS-B In operations.

An important step to mitigate problems with ADS-B is implementing “fusion.”
Fusion in this context is defined as taking all surveillance data available for an
aircraft and using the best data or combination of data to determine aircraft
position and intent. FAA is working to refine fusion capability on the Louisville
Common Automated Radar Terminal System. Table 6 shows the progress and
challenges with implementing ADS-B with existing FAA automation systems—all
of which will impact ADS-B deployment.
      Table 6. Key Automation Platforms Requiring Modifications for ADS-B
  Standard Terminal Automation Replacement System (STARS)
  Manufactured by Raytheon and used at 51 medium sites to manage traffic in the vicinity of airports
  • FAA modified STARS to display ADS-B information at the Philadelphia TRACON.
  • STARS processors, displays, and network equipment face end-of-life issues.
  • STARS processors at 47 of 52 sites will be unable to support ADS-B beyond 2013 when large
    numbers of airspace users are expected to equip with the new technology.
  Common Automated Radar Terminal System (CARTS)
  Manufactured by Lockheed Martin and used at 11 large and 99 small sites to manage traffic in the
  vicinity of airports
  • FAA modified CARTS at Louisville, Kentucky, to accept and display ADS-B information.
  • FAA tested CARTS with UPS ADS-B-equipped aircraft and achieved initial operating capability
    in November 2009.
  • Additional CARTS work is required for the large sites such as New York and Chicago.
  • CARTS processors at 7 of the 11 large sites have limited ability to accept major improvements,
    including ADS-B.
  • The 99 small sites, as presently configured, cannot support any major improvements.
  En Route Automation Modernization (ERAM)
  Developed by Lockheed Martin; will be used to manage high-altitude traffic at 20 planned sites
  • ERAM has experienced problems during testing at its first site (Salt Lake City), the severity of
    which is unknown.
  • FAA is delaying initial ADS-B functionality to later ERAM software releases that have not been
    baselined. ADS-B will initially be incorporated into ERAM Release 1 in a virtual radar format;
    later releases will accept ADS-B format for full functionality.
  • FAA has not determined the allocation of ADS-B requirements among future ERAM software
    releases.
 Source: OIG analysis of ADS-B automation program documentation
                                                                                                           14


Potential Security Vulnerabilities in Using ADS-B To Manage Air
Traffic Will Require Periodic Reassessment
ADS-B implementation has important security implications for the National
Airspace System and the transition to NextGen. The Department of Defense
(DOD)—a key stakeholder in FAA’s NextGen development efforts—raised
concerns that because ADS-B technology makes it possible to receive information
about aircraft without a ground station, a lack of needed precautions could make
the position of aircraft available to virtually anyone.

The September 2008 ARC report highlights other potential vulnerabilities with
ADS-B that malicious cyber attacks may attempt to exploit. Examples include
interfering with ADS-B transmissions, jamming ADS-B broadcasts, and
introducing false targets into the system. Failure to address these concerns early in
the ADS-B program could result in cost increases and schedule delays.

While the ADS-B signal is vulnerable like other satellite transmissions,
mitigations or countermeasures are possible. In commenting on FAA’s proposed
ADS-B rule, stakeholders, including DOD, stressed the need to develop some
level of encryption of ADS-B signals to prevent adversaries from using the system
to disrupt air traffic. DOD has asked FAA for a thorough security assessment
involving DOD and the Department of Homeland Security to determine ADS-B
risks and appropriate countermeasures.

FAA is working with the National Security Agency and the Director of National
Intelligence to get a better understanding of ADS-B vulnerabilities and has
completed a classified report. According to FAA, the report concluded that while
the ADS-B transmission gives more accurate data on aircraft position than
previous technology, many other factors are involved in coordinating and
executing an attack on an aircraft, which severely limits the likelihood of success.
Nevertheless, FAA must maintain focus on this issue to adequately address any
threats and vulnerabilities. Given the substantial support ADS-B receives from
Federal investments, FAA should also inform Congress of the results of
vulnerability assessments and identify the countermeasures necessary to address
known vulnerabilities. In December 2009, we began a review of information
technology security and controls over the ADS-B system and will continue to
monitor these issues. 11




11
     OIG Audit Announcement, “Audit Initiated of Security and Controls of the Automatic Dependent Surveillance–
     Broadcast System,” December 8, 2009.
                                                                                   15


FAA’S ACQUISITION STRATEGY HAS NOT BEEN UPDATED,
AND CONSIDERABLE UNKNOWNS COULD IMPACT THE COST
OF THE ADS-B CONTRACT
FAA chose to rely on a service-based contract approach to implement ADS-B.
Despite subsequent data showing that FAA could have saved significantly with a
traditional acquisitions approach for at least the first phase of the program, FAA
still has not conducted an updated cost analysis to ensure it is pursuing the most
cost effective way to introduce a new surveillance technology. FAA must update
ADS-B cost and benefit information given the complexity and unresolved
implementation issues of the contract, which could cost the U.S. Government
almost $2 billion if all options are exercised. Moreover, it is difficult for decision
makers to track current and potential costs due to the contract’s structure, which
“bundles” costs for various ADS-B services. FAA will be challenged to address
these issues without the right skill mix among staff responsible for developing and
managing ADS-B; however, FAA has not yet assessed staffing gaps or actions
needed to ensure the Agency can effectively oversee the contractor once it begins
operating the ADS-B ground system.

FAA Has Not Updated the Cost and Benefit Analysis of Its Contract
Approach for Developing the ADS-B Ground System
FAA is relying on a service-based contract, which means it will not own the
ADS-B ground infrastructure. FAA will own the data transmitted between aircraft
and the ground but not the hardware, software, or ground stations. In a more
traditional acquisition, FAA would specify the functional design and hardware
deliverables and would ultimately own the equipment.

FAA decided on this contract approach without a comprehensive analysis of the
costs involved. In May 2007, FAA provided Congress with data that showed a
service-based approach for ADS-B would cost about $821 million less than a
traditional acquisition approach. Yet, several months later, FAA increased its cost
estimates to reflect the need for additional ADS-B ground stations, which reduced
its cost savings estimate to about $628 million. Table 7 shows the differences
between the service-based approach and more traditional FAA acquisition in cost
estimates FAA provided to the FAA’s Joint Resources Council (JRC).
                                                                                               16


                Table 7. Adjusted Cost Differential from FAA Ownership
                          and Service Approach ($ in Millions)

                                   Traditional
 Program Office Estimates         Government-            Service Provider         Expected
 as of :                         Owned Approach             Approach             Cost Savings

 May 2007                          $        3,745.60      $        2,923.90      $        821.70

 August 2007*                      $        5,022.77      $        4,394.48      $        628.29

Difference                           $       1,277.17     $         1,470.58     $       -193.41
Source: FAA’s Surveillance and Broadcast Service Program Office JRC Cost Estimates, August 2007 and
FAA analysis, “Service Provider vs. Government owned”

ADS-B officials state there is no need to do a complete analysis to fully update the
latest Government estimate to account for changes (including the change in
ground stations) in order to have an “apples to apples” comparison. This is despite
FAA data showing that it may have been more cost beneficial for the Government
to own the system until completion of Segment 1. For example, according to
FAA’s data, the Government could have saved approximately $600 million in
Segment 1 alone ($1.77 billion for Government-owned cost versus $2.37 billion
via service provider owned and operated). FAA points out that over the long term,
the cost-benefit equation changes in favor of ITT owning and operating the
system. According to ADS-B program officials, the independent Government
estimates used to support the costs were flawed because the Agency incorrectly
allocated more radios than required under Segment 2 of the program. This further
demonstrates why FAA should have updated the analysis.

FAA decision makers need a full understanding of the cost parameters of FAA’s
approach for implementing ADS-B given the key role it is expected to play in
NextGen and the evolving requirements for ADS-B In. Therefore, FAA should
update its analysis and validate that its preferred approach remains cost beneficial
before committing to an additional $2.7 billion by 2012 to proceed with the
nationwide implementation of ADS-B air and ground capabilities.

The ADS-B Contract Is a Complex Financial Agreement That Will
Require Rigorous Oversight To Protect Government Interests
FAA is using a hybrid contract that includes elements such as a cost-plus incentive
fee arrangement for the development of the ground system, firm fixed-price
subscription charges for the broadcast of ADS-B services, and time and materials
arrangements for engineering work. Each type of contract mechanism has unique
risks and management challenges.

Segment 1, or the first 3 years of the contract, is predominately a cost-plus
incentive fee agreement that places the majority of risk with the Government
                                                                                      17


 because FAA must pay the cost for any cost overruns associated with additional
 work to meet existing requirements. Under this arrangement, FAA reimburses the
 contractor for all costs incurred for work performed up to a cost target; this
 encourages the contractor to accomplish work specifications at target costs. This
 first segment focuses largely on developing and installing the ground
 infrastructure for five key sites. FAA has a number of controls in place on the
 contract to incentivize or penalize the contractor for cost overruns for the first
 segment. The bulk of the remaining contract relies on fixed-price subscription
 charges. Under the fixed-price contract, the contractor is obligated to perform the
 stated effort within the fixed price of the contract and assumes the risks of any cost
 increases. Table 8 below describes the elements of the ADS-B contract.
                         Table 8. Elements of the ADS-B Contract
Contract Line Item
Number (CLIN)          Supplies /Services               Contract Type                 Costs
CLIN 0001              Development and Installation     Cost Plus           $   207,576,480
                                                        Incentive Fee
CLIN 0002              Equipment Usage Charges          Firm Fixed Price         30,952,941
CLIN 0018 (3 years)    Engineering Services             Time and Material         4,500,000

       Subtotal                                                             $ 243,029,421
Options (FY 2009-FY 2025)
                       Subscription Charges
CLIN 0003 thru 0014    (Essential & Critical Service)   Firm Fixed Price    $ 1,398,508,646
CLIN 0015 thru 0017    Program Management               Firm Fixed Price         84,823,266
CLIN 0018              Engineering Services             Time and Material        30,004,404
                       Subscription Charges
CLIN 0019 thru 0034    (Including Weather Services)     Firm Fixed Price       108,625,534
      Subtotal                                                              $1,621,961,849
  Grand Total                                                               $1,864,991,270
  Source: OIG analysis of FAA’s ADS-B contract

 FAA will pay the contractor on average over $90 million annually for broadcast
 services before airspace users are required to equip by 2020. The contractor will
 be paid regardless of whether important efforts remain on track, including
 modifications to various controller displays and automation equipment, finalizing
 requirements for ADS-B In, procedure development, and controller training
 programs. Under the current plan, FAA will have spent almost $2 billion on the
 ground infrastructure, but neither the traveling public nor airspace users will
 realize significant benefits in terms of delay reduction at already congested
 airports until 2020.

 The ADS-B contract also allows ITT to sell “value-added services to airspace
 users.” The contractor must seek approval from FAA before releasing the
 surveillance data, and the Agency is expected to provide criteria for filtering the
                                                                                                                      18


data. These services could include enhanced weather products for specific regions
(like the Gulf of Mexico) and sales of traffic information. FAA officials
commented that airports may be interested in purchasing information on aircraft
position and location for a better understanding of facility utilization and better
surface management.

FAA believes that the sale of value-added services will help reduce the overall
costs with ADS-B and therefore made it an essential element of the business
model for the contractor. The contract states that the Government and the
contractor will share revenue from the sale of these services. Several industry
representatives have stated that ITT and FAA’s value-added services need greater
clarity and raised concerns that these services appear to be a “back-door method”
to augment FAA’s budget.

At this juncture, however, it is difficult to predict the demand for services and
what stakeholders will value over the life of the ADS-B contract. Further, there
may be other entities that can share or provide information on the location of
aircraft on the surface at high-activity airports or weather to pilots. For example,
FAA is currently testing enhanced information sharing with an existing ground-
based system for surface surveillance at New York’s John F. Kennedy airport. 12
FAA should assess ongoing and planned efforts to share more information as part
of NextGen and determine whether the assumptions and profitability of value-
added services specifically for ADS-B remain valid. If value-added services do
not materialize, the underlying business case for the ADS-B contractor may not be
achievable and cause problems for FAA in managing the implementation of a key
NextGen technology. FAA indicated that its Chief Operating Officer is chairing
meetings on information sharing as part of NextGen and the role of the ADS-B
contractor regarding value-added services.

Unresolved Questions Exist That Could Materially Affect the
Government’s Liability and Overall Cost for Implementing the ADS-B
Ground System
According to FAA, the Agency has minimized contract risks because most of the
contract is fixed price (including the capital and operating costs), which places the
majority of risk with the contractor. This assumes, however, that requirements are
firm and achievable and that there is a clear end state to ADS-B. We identified
several unknowns within the contract that could materially affect the cost of the
ADS-B effort and the Government’s liability.



12
     A key element of this effort is Airport Surface Detection Equipment-Model X (ASDE-X), planned for deployment at
     35 airports, including JFK. This system displays aircraft and vehicle positions and identification to aid air traffic
     controllers in preventing ground collisions on the airport surface and reducing runway incursions.
                                                                                                                      19


The contract does not require critical services throughout the NAS. The
ADS-B contract does not include cost estimates to support critical services for all
sites throughout the life of the contract. 13 The ADS-B contract states that the
contractor shall provide both critical and essential services at an estimated cost of
$1.4 billion at defined sites as specified by the Government. The contract includes
about $1.3 billion in subscription charges for essential services but only
$62 million for critical services, which have far more demanding performance
requirements.

The contract includes charges supporting a total of 323 service volumes, or about
239 sites that will provide ADS-B services. 14 These totals are different because
multiple service volume types (i.e., en route, terminal, and/or surface operations)
can support one site. However, we found the contract does not require that critical
services be provided at all sites or include life cycle costs at numerous sites (such
as Washington, Boston, and Chicago) that will have critical services. For
example, for 24 of the 25 sites, the contract only includes ADS-B critical service
charges supporting the en route operations for 1 year but did not state any price for
the remaining years through 2025. In addition, the contract only includes costs for
35 airports to obtain critical services supporting surface operations, and 10 of
those 35 have costs for only 1 year. As a result, FAA has not specified to decision
makers how the contractor will provide critical ADS-B services supporting the en
route and airport surface domains throughout the National Airspace System over
the life of the contract.

Development risks with broadcasting ADS-B on two distinct links could
increase costs. The contract does not provide cost estimates specifically for the
development of a critical service called Automatic Dependent Surveillance-
Rebroadcast (ADS-R). Because FAA will rely on two links, it must rebroadcast
the ADS-B information to all aircraft to get the benefits from ADS-B In. It is
important to ensure that different aircraft (equipped with different broadcast links)
can “see” each other. The timely delivery of ADS-R signals will be necessary to
enable advanced applications such as runway safety information. There is
potential for cost growth as FAA officials told us that they expect some changes to
requirements. One FAA official stated that it may be cost prohibitive to
implement ADS-R nationwide.

In addition to uncertain costs, ADS-R presents added risks of faults, failures, and
delays in the ground hardware and software required to merge and rebroadcast
information on two links. Various representatives from airline associations
expressed concern that ADS-R may not be technically feasible and that it may lack

13
     Essential services will be used by pilots as advisory information, whereas critical services will be used to separate
     and manage aircraft.
14
     In addition to the 239 sites, there are 25 more sites where ADS-B weather services will be provided.
                                                                                  20


sufficient growth capacity to support future applications, including collision
avoidance. For example, information based on ADS-R could lack the precision
necessary for some important applications, such as merging and spacing and
ultimately allowing pilots to “self-separate.” In addition, the system could present
false targets to pilots during critical phases of flight.

FAA, however, believes that it can mitigate these risks and that they will not result
in performance issues for targeted ADS-B In applications. Nevertheless, the
development of ADS-R remains a key risk to full ADS-B implementation, and its
true costs remain unknown.

The number of ADS-B ground radio stations could grow and increase
contract costs. The number of ADS-B ground radio stations and their installation
costs are key cost drivers for the ADS-B program. Due to changing requirements
between air and ground elements, the need for additional ground stations is
uncertain and could increase FAA’s contract costs and therefore the Government’s
liability. For example, FAA’s own analysis increased the estimated system
deployment costs by over $1 billion regardless of public or private ownership of
the ground system.

FAA states that the contractor will deliver more than 300 ground systems as part
of Segment 1 of the contract under the cost plus agreement. However, FAA
proposed that aircraft be equipped with both a top and bottom antenna to support
ADS-B Out and future ADS-B In applications. Many stakeholders oppose these
requirements due to the increased costs. As FAA points out, there are legitimate
reasons for more than one antenna to achieve sufficient update rates for
controllers. Nevertheless, the ARC urged FAA to consider allowing aircraft with
a single antenna to fly through high-density airspace and recommended that FAA
explore how the drawbacks of single antenna could be offset by adding additional
ground stations. In the final rule for ADS-B, FAA decided to rely on a single
bottom-mounted antenna, which could translate into more ground stations.

Currently, FAA estimates it will need almost 800 ground radio stations to provide
service to 323 segments of airspace, or “service volumes.” For example, each
major airport constitutes a specific service volume. FAA estimates that 60 service
volumes will be required to provide surveillance for the Nation’s 20 facilities that
manage high-altitude traffic. As FAA points out, the number of radio stations is
subject to change as the Agency conducts more detailed site surveys. Until FAA
completes all site surveys, the total number of radio stations FAA is responsible
for under the first segment remains uncertain.

FAA will procure the remaining 454 radio stations needed to complete ADS-B
deployment nationwide under Segment 2 of the contract, which makes ITT
responsible for the cost of deploying enough radios to meet requirements. ITT
                                                                                                    21


will recover its costs through fixed-price subscription charges. FAA states that
there will be no risk to the Government if additional ground stations or towers are
needed during Segment 2. This is because the contract does not specify the
number of radios or towers. Nevertheless, the number of radio stations will be
important to obtain the necessary coverage and level of performance with ADS-B
for safe, efficient operations, particularly in congested airspace.

A September 2009 joint government and industry task force report on NextGen’s
mid-term implementation made recommendations that if accepted, could also
impact the ADS-B contract. 15 The task force stated that FAA should expand the
volume of what “radar-like services” will be provided by redefining the contract
with ITT to deliver ADS-B data in “non-radar” airspace. It also noted that FAA
should expand ADS-B to additional locations. The initial focus is low altitude
airspace, where radar is not available, within 35 to 40 miles of airports in
Washington, D.C., and New York. If FAA reallocates requirements between air
and ground elements or adds locations, it could result in a change to the contract.
Such a change would entitle the contractor to request an equitable adjustment to
the contract’s price and schedule.

The ADS-B contract misclassified essential service charges as critical service
charges for the Gulf of Mexico service volumes. We found a $16 million
variance for subscription charges supporting Segment 1 critical services through
2016 (see table 9). While the contract states the value is about $2 million, our
review of the pricing table found costs totaling about $18 million. According to
ADS-B program officials, although the contract pricing spreadsheet shows ADS-B
critical services under the Gulf of Mexico (GOMEX) Service Volume, it should
have been included as an essential service price. FAA officials acknowledge that
this same condition exists with contract line items that identify charges between
2017 through 2025.
      Table 9. Contract Misclassification of Essential Services as Critical Services
                                   (Dollars in Millions)

Contract Line                                                 Total Costs
Item Number         Subscription Charges                                                  Discrepancy
(CLIN)              (thru 2016)                        CLIN           Pricing Table         Amount
0003                Segment 1: Critical                $2,072,944        $18,101,786         $16,028,842
                    Services

0006                Segment 1: Essential            $311,873,778        $295,844,936       ($16,028,842)
                    Services
Source: OIG analysis of FAA’s ADS-B contract


15
     RTCA NextGen Mid-Term Implementation Task Force, NextGen Mid-Term Implementation Task Force Report,
     September 9, 2009.
                                                                                                                    22


Based on concerns we raised with the program office, FAA modified the ADS-B
contract in June 2010 to make the CLINs and pricing tables consistent. FAA
modified the pricing spreadsheets by deleting ADS-B critical service charges from
GOMEX service volumes and reclassifying them under essential services. This
will ensure that the contract accurately reflects what ADS-B critical and essential
services the contractor is liable to provide and that both parties agree on their
respective charges.

The ADS-B Contract Structure Bundles and Comingles Tasks and
Costs, Making It Difficult for Decision Makers To Track Capital and
Operating Costs
The basic structure of the ADS-B contract makes it difficult for FAA to accurately
track costs. For example, the first contract line item number (CLIN-0001)
supports the development and installation of the ADS-B ground infrastructure for
approximately $207 million. However, various tasks and their associated costs for
developing this system (e.g., program management, hardware and software design,
procurement/production, and site installation) are embedded or bundled together
within this one contract line item. This makes it difficult to trace actual
development and unit production costs, including how many radio stations will be
needed to support Segment 1.

We are also concerned that the contract currently comingles the costs of capital
assets (the equipment required to broadcast the ADS-B signal) and a variety of
operating costs within the contract line items. For example, based on recent ITT
estimates, $295.2 million is associated with capital assets for radio stations and
complementary hardware and software that fall within two distinct contract line
items (CLINS 0006 and 0012) ). 16 The subscription charges for these two contract
line items total $676.1 million. However, ITT’s cost proposal for these two
contract line items also includes operating costs, such as rent, utilities, operations,
and maintenance for radio stations, control stations, and service delivery points,
plus service monitoring costs. The contract does not separately identify or track
any of these operating costs elsewhere. As a result, it will be difficult for FAA
and the contractor to identify and verify the capital and operating costs incurred or
billed under this contract.

For example, FAA conducted an extensive review of the contractor’s cost proposal
in 2007 and reported to the Office of Management and Budget (OMB) that capital
costs for about $150 million were required for the contract. However, in August
2009, FAA advised us that ITT had since estimated that ADS-B capital costs—
including amounts for research and development, bid and proposal, and general

16
     FAA reported these assets as capital leases to the Office of Management and Budget officials that represent the net
     present value of future payments.
                                                                                                               23


and administrative costs—were $348 million. Additionally, in August 2009
FAA’s legal counsel determined that the assets being constructed for ADS-B did
not meet the criteria for a capital lease. This means that additional radio stations,
equipment, software, and implementation costs may be required. FAA needs to
understand what the expected capital costs are for the system; track the types of
capital and operating costs billed to identify potential cost overruns; and monitor
progress by determining whether ADS-B is meeting program goals in terms of
cost, schedule, and performance.

Capital costs for expenditures, construction, equipment, software, and
implementation costs should be separately estimated, recorded, and billed. Such
accountability helps to identify operating costs and prevents “hiding” of related
cost overruns in capital accounts as construction progresses. Since operating costs
are period costs they should be easily identified and excluded from capital charges
in subscription fees billed to FAA. In January 2010, FAA agreed with our
observation that the contract provided the Agency with the means to require the
contractor to separately track and bill the Government for capital costs at no
additional expense. In June 2010, FAA issued a contract modification to exercise
this option.

Basic Management Controls Over the ADS-B Contract Are Lacking
While FAA’s contract for ADS-B has controls that are important for managing
and overseeing a complex acquisition, we identified a number of areas where FAA
could strengthen them. Specifically, FAA convened an oversight and review
board that meets monthly and relies on Earned Value Management (EVM)—an
analytical tool—to monitor progress in meeting cost and schedule targets. 17
However, EVM will primarily be used for the first segment of the contract. This
is a concern given the problems we have identified with basic contract
administration, such as undocumented contract changes, and the question of
whether FAA has the in-house expertise to effectively oversee the contractor once
the ground infrastructure is in place.

Mechanisms to track progress with cost and schedule parameters are limited
to the first segment of the contract. Our July 2009 management advisory to
FAA raised a number of concerns about its methods for assessing progress with
ADS-B. For example, the contractor’s EVM data showed that the estimated
solution development cost to complete ADS-B ground infrastructure through
September 2009 was approximately $111.8 million; however, this activity was
initially budgeted to cost about $84.1 million. Despite this $27.7 million variance,



17
     Earned Value Management System (EVM) is a management tool that provides for integrating technical, cost, and
     schedule information about contract performance. This information enables FAA to proactively manage contracts.
                                                                                 24


the contracting officer was reporting that the contractor was meeting ADS-B cost
goals.

In an updated analysis we reviewed, we questioned why the contractor EVM data
reported as of September 2009 indicated the estimated costs and fees to develop
and install ADS-B would exceed the contract total by approximately $7 million
(from $207 million to $214 million). FAA officials acknowledge there have been
a number of changes to requirements that increased the ADS-B development and
installation costs.

FAA is planning to use EVM to measure progress with ADS-B development and
installation activities, which are under a cost-plus incentive fee arrangement. This
represents only the first segment of the contract, which was originally valued just
over $207 million (or approximately 10 percent of the total contract value).
However, FAA points out that EVM is generally not used for fixed-price contract
elements, which make up the later segments of the ADS-B contract. FAA would
benefit from establishing a mechanism to track and monitor the costs of the
remaining ADS-B implementation activities associated with fixed-price elements.

FAA needs to correct improper contract administration practices and
document contract modifications. Our July 2009 management advisory also
raised concerns that FAA’s contracting officer for ADS-B was not documenting
contract changes in a timely manner. FAA’s Acquisition Management System
guidance specifies that contract modifications should be properly documented to
describe the changes made to the scope of work, the contract price, the period of
performance, and other contract terms. During our review, we analyzed
13 contract modifications that primarily funded development and installation
activities.

We found that although FAA’s contracting officer had provided funds to the
contractor, he did not identify the changes in the scope of the work, the prices,
periods of performance, or other terms. For example, in March 2009, the ADS-B
contracting officer issued a contract modification funding the contract to
approximately $124 million but did not define the additional scope of work to be
performed. As a result, FAA agreed to pay the contractor more than $60 million
without the proper documentation needed to adequately account for what the
contract would perform.

Documenting contract changes is a fundamental contracting officer responsibility.
Unless the contract includes a clear definition of the work and its prices, the
Government is at risk of overpaying or paying for something it does not want. In
response to our concerns, FAA has placed additional resources to help improve
overall contract administration.
                                                                                  25


FAA does not yet have the in-house expertise to effectively oversee
ADS-B. As we have noted in multiple reports and testimonies, the right skill mix
is essential to develop and manage NextGen initiatives, and this is particularly true
for ADS-B. For example, FAA must ensure that all 323 planned service volumes
are working as intended on a regular basis. It will be difficult for the Agency to
build and sustain sufficient in-house knowledge of how the system actually works
and how problems are solved since it will neither own the hardware, ground
stations, and related software nor be responsible for the operation and maintenance
of the ground system.

Further, much of the ADS-B infrastructure will be embedded in commercial
equipment and networks. FAA knowledge may diminish once contractors assume
sole responsibility for operating and maintaining the satellite-based system. The
key personnel skills that are needed for effective ADS-B oversight include
telecommunications, signal processing, and knowledge of the GPS constellation.
However, FAA has not assessed the in-house skills it needs to oversee the ADS-B
ground infrastructure. Without this information, we are concerned that FAA could
find itself in the unenviable position of knowing very little about a system that is
expected to be the foundation of NextGen.

CONCLUSION
ADS-B is a cornerstone NextGen technology and has the potential to significantly
enhance capacity and safety. However, FAA faces multiple challenges and
considerable risks in implementing ADS-B. FAA must provide Congress and
airspace users with a plan to address the challenges, mitigate the risks, and assess
the costs and benefits of its decisions. Until FAA addresses challenges such as
equipage, requirements, system integration, and contract management issues,
realization of ADS-B program goals will remain uncertain and NextGen initiatives
will be delayed.

RECOMMENDATIONS
To reduce risk with ADS-B implementation, FAA needs to:

 1. Accelerate efforts to establish requirements for ADS-B In and certify cockpit
    displays for enhancing pilot situational awareness to improve operations at
    high-density airports.

 2. Further quantify and validate controller productivity enhancements that can
    result from displaying ADS-B information on controller displays and the
    additional automation needed to maximize these ADS-B benefits.
                                                                                26


 3. Develop and fund a targeted human factors research effort for pilots and
    controllers for ADS-B In requirements (display and procedures) in order to
    prioritize efforts and examine the proper sequence for introducing new
    capabilities.

 4. Work with the U.S. intelligence community to assess potential threats to the
    ADS-B system and ways to mitigate them.

To enhance oversight of the ADS-B contract, FAA needs to:

 5. Update the cost benefit analysis for the acquisition to ensure that FAA’s plan
    is still appropriate before committing the additional funds for a nationwide
    deployment of the ADS-B ground infrastructure.

 6. Clarify the use of ADS-B value-added services and reexamine assumptions
    about the ability of ITT to sell them in light of other planned NextGen efforts
    to greatly expand information sharing between FAA and stakeholders.

 7. Specify the cost and schedule for providing ADS-B critical services to all en
    route and airport surface domains over the life of the contract.

 8. Assess the technical readiness of ADS-R and any risks to its development
    and determine which locations will need ADS-R.

 9. Determine and obtain the necessary in-house expertise to effectively monitor
    the contractor’s efforts and oversee the ADS-B ground infrastructure over the
    long term.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with FAA’s Assistant Chief Counsel,
Acquisition and Commercial Law Division, and the Director of Surveillance and
Broadcast Services and provided FAA with our draft report on September 2, 2010.
We received the Agency’s formal response on September 28, 2010. FAA
concurred with seven of our nine recommendations but did not provide a target
completion date for recommendation 2 and partially concurred with
recommendations 5 and 7. FAA’s complete response is included as an appendix
to this report.

Specifically, for recommendation 2, FAA stated that it is finalizing negotiations
with the National Air Traffic Controllers Association (NATCA) about the nature
and extent of controller participation in potential ADS-B modifications to
controller displays. FAA noted—and we agree—that controller productivity
                                                                                  27


enhancements could arise from procedural changes, not necessarily changes to the
automation systems. While FAA’s efforts with NATCA are an important step,
FAA must determine what levels of productivity it can realistically achieve and
what new technology and procedures it will need to do so. This will help boost
industry confidence in FAA’s ability to not only deliver technology but also
benefits to airspace users. Therefore, FAA needs to provide our office with target
action dates for completing ongoing work with the controllers to identify potential
modifications to procedures and automation platforms.

For recommendation 5, FAA agreed that it needs to update the cost benefit
analysis but stated that it is premature to update the benefits portion at this time
since benefits are tied to the equipage rate. While users are not mandated to equip
until 2020, FAA proposed doing an interim sample of the equipage rate between
2015 and 2016, at which time it will validate the cost benefit analysis against the
original baseline. We note, however, that our recommendation also included
validating that FAA’s acquisition approach is still appropriate since FAA may
spend an additional $2.7 billion to implement ADS-B. FAA needs to conduct this
analysis sooner rather than later given the central role ADS-B will play in
revamping air traffic management. Therefore, we reiterate that FAA should
validate that its preferred approach remains cost beneficial before committing
additional funds by the planned Joint Resources Council in 2012, which will
baseline and fund activities for 2014 and beyond.

For recommendation 7, FAA agreed that the lifecycle contract costs for critical
services require clarification. FAA stated, however, that it is difficult to reflect
this in contract pricing tables, which show only the initial costs for critical
services. FAA proposed to issue a contract modification by October 31, 2010, in
lieu of reissuing the pricing tables. This contract modification will clarify pricing
assumptions to state when charges for ADS-B critical services are included under
Essential Services for a specific service volume if the pricing table does not
separately reflect them. Moreover, FAA is planning to refine its schedule for
establishing critical services for all locations by FY 2014. FAA’s response meets
the intent of our recommendation and if implemented will increase contract
transparency. However, we plan to keep this recommendation open until the end
of FY 2014 so we can verify whether the ADS-B contract includes cost estimates
to support critical services for all sites throughout the life of the contract.

ACTION REQUIRED
FAA’s proposed actions for all nine recommendations are responsive, and we
consider them addressed but open pending completion of the planned actions. In
accordance with DOT Order 8000.1c, we request that FAA provide us with a
target completion date for recommendation 2 and reconsider its completion date
                                                                                28


for recommendation 5. We appreciate the courtesies and cooperation of
Department of Transportation, FAA, and various stakeholder representatives
during this audit. If you have any questions concerning this report, please contact
me at (202) 366-1427 or Kevin Dorsey, Program Director, at (202) 366-1518.

                                        #

cc: FAA Assistant Administrator for Financial Services/CFO
    FAA Deputy Administrator
    Assistant Secretary for Aviation and International Affairs
    FAA Chief of Staff
    FAA Director, Audit and Evaluation
    Anthony Williams, AAE-001
    Martin Gertel, M-1
                                                                               29




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
At the request of the Chairmen of the House Committee on Transportation
Infrastructure and the House Subcommittee on Aviation, we examined FAA’s
plans for implementing ADS-B. Specifically, our objectives were to (1) examine
key risks to FAA’s successful implementation of ADS-B and (2) assess the
strengths and weaknesses of FAA’s proposed contracting approach.

To achieve our objectives, we analyzed contract data, budget data, acquisition
documents, cost and schedule projections and other supporting documentation
provided by FAA. We also reviewed the ADS-B contract and relevant contractor
financial and performance reports from ITT Corporation, the prime contractor.
We reviewed FAA’s ADS-B budget and cost estimates and ADS-B strategy
documents for reasonableness and cost effectiveness. We examined FAA
expenditure data for ADS-B, to determine how much has been spent since the
program’s inception and for FAA’s legacy systems to determine if ADS-B is
achieving cost and benefit goals. We also analyzed the FAA’s Notices of
Proposed Rulemaking for the ADS-B system.

We interviewed key FAA and ADS-B program officials at FAA Headquarters in
Washington, D.C. We also met with industry officials and union representatives.
We interviewed ITT Corporation officials to discuss the contract and the status of
the system’s development, installation, and implementation.

We conducted this performance audit between August 2007 and June 2010. The
audit was performed in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States.
As required by those standards, we obtained evidence that we believe provides a
reasonable basis for our findings and conclusions based on our audit objectives.




Exhibit A. Objecti ves, Scope, and Methodology
                                                                                                                      30




EXHIBIT B. KEY ADS-B IMPLEMENTATION MILESTONES
Thus far, FAA has completed a number of important ADS-B actions on schedule.
For example, FAA has completed a critical design review 18 of the ground system
and ADS-B ground systems have been deployed at the first key site in Miami,
Florida. The Miami systems have been declared suitable for operational use and
are providing services to a limited number of pilots in properly equipped aircraft. 19

Between 2009 and 2014, FAA plans to complete the ground infrastructure, and
fully integrate ADS-B with existing FAA automation systems that controllers
currently rely on to manage traffic, and provide weather services. Further
refinement of additional air-to-air applications (for ADS-B-In) and the
decommissioning of radars are planned for the 2015 to 2025 timeframe.
Table B-1 shows the key milestones for ADS-B implementation.

                               Table B-1. ADS-B Key Milestones
                                                                                         Projected/Actual
                                      Milestone
                                                                                         Completion Date
       In Service Decision—Miami                                                               November 2008
      Initial Operating Capability—Louisville                                                 November 2009
       Initial Operating Capability—Gulf of Mexico                                             December 2009
       Initial Operating Capability—Philadelphia                                                   March 2010
       Initial Operating Capability—Juneau                                                            April 2010
       Publish Final Rule for ADS-B Out                                                               May 2010
       In Service Decision for Critical Services                                              September 2010
       Complete ADS-B NAS-wide Infrastructure Deployment                                      September 2013
       Source: FAA Contract—ADS-B Program, August 24, 2007




18
     A critical design review validates that the contractor’s overall design of the system meets the contract requirements.
19
     It is important to note that the ADS-B ground systems deployed in Miami are broadcasting “essential” services
     (advisory information) to pilots as opposed to broadcasting “critical” services or the down-linking of information to
     FAA automation systems that will be used for separating aircraft.


Exhibit B. Key ADS-B Implementation Milestones
                                               31


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


 Name                  Title                    .


  Kevin Dorsey         Program Director

  Lillian Slodkowski   Project Manager

  Melissa Pyron        Senior Analyst

  Won Kim              Auditor

  Andrea Nossaman      Writer-Editor

  Arthur Shantz        Technical Advisor




Exhibit C. Major Contributors to This Report
                                                                                               32



APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:          September 28, 2010
To:            Matthew E. Hampton, Deputy Assistant Inspector General for Aviation and
               Special Program Audits
From:          Clay Foushee, Director, Audit and Evaluation
Prepared by: Anthony Williams, x79000
Subject:       OIG Draft Report: FAA Faces Significant Risks in Implementing the
               Automatic Dependent Surveillance - Broadcast Program and Realizing Benefits


The Automatic Dependent Surveillance-Broadcast (ADS-B) program is a cornerstone of the
Federal Aviation Administration’s (FAA) overall approach to evolving air traffic control, from its
present state into the Next Generation Air Transportation System (NextGen) approach; increasing
safety and the overall efficiency of the National Airspace System. While it employs a complex
multifaceted approach, it is built upon the straightforward concept of leveraging Global
Positioning System technology to give the pilot and controller the access to better information for
making safe aviation decisions. The FAA appreciates the Office of Inspector General (OIG)
report’s recognition of the strides that FAA has achieved and agrees that the program offers the
potential for significant long term benefits. At the same time, it is a long term program that
requires the careful coordination of disparate participants, with varying perspectives ranging
from cost, to effectiveness, to national security.

FAA Involved Stakeholders and ADS-B Development

FAA obtained stakeholder input throughout the ADS-B program and ensured that decisions were
transparent, objective and appropriate. FAA enlisted the participation of diverse stakeholders to
help refine requirements for both ground and avionics system elements. Significant industry
involvement resulted in a performance-based contract that incentivized the contractor to perform
- and actual results are essentially on-time and under budget. The ADS-B signal provides the
controllers more accurate data than previously available and FAA is soliciting controller
feedback on how best to display and use that data across each automation platform. The ADS-B
final rule for equipage was issued on May 27, 2010 after Aviation Rulemaking Committee
(ARC) and significant industry input. The FAA coordinated with the Radio Technical
Commission for Aeronautics (RTCA) and other aviation organizations before issuing a Technical
Standard Order (TSO) which defines ADS-B “Out” manufacturer requirements for avionics. The


Appendix. Agency Comments
                                                                                                 33


FAA has also established an advisory circular which identifies the requirements for avionics
installation. This stability in requirements is expected to allow the avionics industry to
manufacture, certify and install rule-compliant equipment well in advance of the 2020 required
date.

FAA Defining Advanced ADS-B Requirements

FAA is now defining the more advanced requirements for ADS-B “In” applications. Due in part
to program success to-date, increased demand for avionics applications by the user community
may present the FAA with the future choice of whether to modify ADS-B air or ground
components. The plan for ADS-B “In” high value advanced applications is to define
requirements through the Applications Integrated Work Plan Steering Committee and Work
Group, and from an Aviation Rulemaking Committee convened July 2010. If these ADS-B “In”
requirements are cost beneficial, the FAA will decide whether to add to the existing program or
contract baseline.

RECOMMENDATIONS AND RESPONSES

Recommendation 1. Accelerate efforts to establish requirements for ADS-B In and certify
cockpit displays for enhancing pilot situational awareness to improve operations at high-density
airports.

FAA Response: Concur. In July 2010, FAA formed an ARC to explore ADS-B In. The FAA has
agreements with several airline partners (e.g., United Parcel Service, United, US Air, etc.) to
equip aircraft and collect data. The airline partners have subcontracts with avionics
manufacturers and those efforts will lead to certified avionics. Cockpit displays are expected to
be the most expensive type of avionics. As the FAA and industry research potential high-value
ADS-B “In” applications, part of that work will involve prioritizing which applications would
require a cockpit display. The ARC is chartered to deliver a final report on its recommendations
by September 30, 2011. It will also complete all follow on work and prepare a summary report
detailing recommended next steps by June 1, 2012.

Recommendation 2. Further quantify and validate controller productivity enhancements that can
result from displaying ADS-B information on controller displays and the additional automation
needed to maximize these ADS-B benefits.

FAA Response: Concur. The FAA is nearing completion of negotiations with the National Air
Traffic Controllers Association about the nature and extent of controller participation in
evaluating any potential modifications. Potential productivity enhancements could arise from
procedural changes and do not necessarily involve changes to the automation system. The FAA
will analyze the costs and benefits between contemplated procedural and automation changes in
its decision making process. As part of the FAA’s business case, the benefits of providing
improved surveillance data via ADS-B Out to air traffic control decision support tools such as
User Request Evaluation Tool (URET) and Traffic Management Advisor (TMA) were
quantified. The present value of increasing the utility of these decision tools was estimated to be
$802 million for URET and $417 million for TMA. The URET benefits begin to be accrued in
2017 after the decision support tool is migrated to the R-Side (radar) while the TMA benefits




Appendix. Agency Comments
                                                                                                   34


were not to be accrued until 2020 due to uncertainty of achieving the benefit prior to full user
equipage.

Additionally, the implementation of a ground based interval management system in conjunction
with ADS-B Out provides air traffic control with the ability to support optimal profile descents in
busier traffic environments translating to $796 million in present value dollars between 2014 and
2035.

Recommendation 3. Develop and fund a targeted human factors research effort for pilots and
controllers for ADS-B In requirements (display and procedures) in order to prioritize efforts and
examine the proper sequence for introducing new capabilities.

FAA Response: Concur. The Agency will evaluate any recommendations from the ADS-B ‘In’
ARC and RTCA efforts. All recommendations will be addressed and incorporated into the Joint
Resources Council (JRC) in 2012 which will baseline and fund activities 2014 and beyond.

DO-317 A, the standard for cockpit based ADS-B ‘In’ applications, is under development as a
joint RTCA/EuroCAE product. Development of this standard will be completed by the end of
fiscal year (FY) 2011 third quarter. After DO-317A is published, a TSO – certification
requirements for avionics invoking it will be published within 3 months (by FY 2011 fourth
quarter).

The Agency has conducted multiple focused human factors research efforts to date related to
ADS-B ‘In’ and has plans to continue conducting this research in the future. Examples of
research efforts include and/or will include: Surface Indications with Alerts - conducted 5
human-in-the-loop (HITL) studies (between 2008-2010) plus additional simulation and flight test
HITL studies (February 2010); In Trail Procedures (ITP) - white paper on ITP display issues and
potential resolutions (March 2010), demonstration of ITP display concepts (July 2010), human
factors flight simulator evaluation (September 2010), human factors flight test evaluation
(February 2011); Interval Management - HITL simulations (April 2007, June 2008, July 2008,
September 2008, December 2008, August 2009), field tests (June 2010, August 2010), and
additional HITL simulations (beginning FY11 if the ARC endorses). There will also be Traffic
Situation Awareness with Alerts human factors studies completed by 2012.

Recommendation 4. Work with the U.S. intelligence community to assess potential threats to
the ADS-B system and ways to mitigate them.

FAA Response: Concur. FAA is conducting an ongoing dialogue with DoD and the intelligence
community and making annual updates to its Security Certification and Authorization Package
(SCAP). The next authorization date (SCAP update) is October 29, 2010.

Recommendation 5. Update the cost benefit analysis for the acquisition to ensure that FAA’s
plan is still appropriate before committing the additional funds for a nationwide deployment of
the ADS-B ground infrastructure.

FAA Response: Partially Concur. The FAA agrees with the need to eventually update the cost
benefit analysis, but disagrees with the timing of the recommendation. It is premature to update
the benefits portion of the cost benefit analysis because the benefits are tied to the equipage rate.



Appendix. Agency Comments
                                                                                                  35


The FAA approved and baselined the nationwide deployment of ADS-B at the August 2007 JRC
meeting. Using the latest July 2010 Earned Value Management data, FAA planned to spend
$522,762,990 by that point and actually spent $488,038,680. The plan included attaining Initial
Operating Capability at four key sites and publishing a rule for ADS-B Out, all of which have
been accomplished. The program Cost Performance Index is 1.04 and program Schedule
Performance Index is 0.97, indicating a healthy program.

The ADS-B In Service Decision (ISD) occurred on September 22, 2010. At this time, an analysis
of approved versus spent dollars will be conducted as part of a decision to continue nationwide
deployment of the system.

The ADS-B Out rule was recently published (May 2010) and the compliance date is not until
2020. The cost benefit analysis will be updated once a substantial level of equipage is in place to
realize and calculate the planned benefits. In the interim, the Agency will sample the equipage
rate between 2015 - 2016 and validate the cost benefit analysis as compared to the baseline.

Recommendation 6. Clarify the use of ADS-B value-added services and reexamine assumptions
about the ability of ITT to sell them in light of other planned NextGen efforts to greatly expand
information sharing between FAA and stake holders.

FAA Response: Concur. The FAA agrees that plans to share data with the aviation industry and
others should be carefully coordinated. The ADS-B contractor was not promised exclusive use of
ADS-B data - but the value of that data feed could be diluted to the extent that similar aviation
data becomes available from alternate sources. The FAA is in the process of creating a new
organization (ATO-V, Mission Support Services) with overall responsibility for coordinating
data release issues. The ability of ITT to sell value added services in light of other planned
NextGen efforts may be aided by segregating data related to FAA “core” activities from data to
be used for other customer activities such as asset tracking and resale of surveillance data to third
parties. Actual sale of value added services is dependent on equipage rates, customer demand,
and ITT marketing.

The Surveillance Broadcast Services (SBS) program office has initiated discussions with ITT
regarding which value added services would be most attractive to potential customers and would
provide an effective stream of revenue. The ITT value added ADS-B architecture has been
approved by FAA. A Beta Test period has been initiated where data is currently being provided
to several users. The Beta Test will aid in determining how the delivered data could be displayed
and utilized. The SBS program office is developing a governance policy (to be in place by
calendar year 2010) which will guide the type of data which will be released and the authorized
usage by each customer. It is envisioned the Beta Test will last approximately 6 months. After
the Beta Test is completed, ITT will charge customers for data. At that time, a system will have
been developed which will include the data release approval process and a related revenue
reporting system. The SBS program office has also authorized ITT to establish a link for display
of ADS-B value added data to Alaskan pilots to enable them to assess the potential of value
added products.

Recommendation 7. Specify the cost and schedule for providing ADS-B critical services to all
Enroute and airport surface domains over the life of the contract.




Appendix. Agency Comments
                                                                                                  36


FAA Response: Partially Concur. The FAA agrees that the contract pricing tables do not in some
instances separately identify pricing for ADS-B Critical Services and that it is not always clear in
those tables whether the costs are included in the pricing.

The stated cost for providing Critical Services is a layer of the overall cost because the contract
pricing assumptions stated that the Critical Services would be built upon the pre-established
Essential Services network. Accordingly, there is an initial charge for establishing Critical
Services, after which the cost of providing Critical Services are included in the Service Volume
Essential Services prices.

The schedule for establishing Critical Services (based on the contract’s pricing tables) for
remaining locations is:

               FY 2011:   6
               FY 2012: 97
               FY 2013: 109
               FY 2014: 86
               Total:   298 locations

In lieu of reissuing the pricing tables with a specific cost and schedule for ADS-B Critical
Services, existing contract provisions for pricing assumptions will be clarified to state that where
there is no separate ADS-B Critical Services subscription charge in the pricing table, the charge
is included in the Essential Services charge for that service volume. A contract modification will
be completed by October 31, 2010.

Recommendation 8. Assess the technical readiness of Automatic Dependent Surveillance-
Rebroadcast (ADS-R) and any risks to its development and determine which locations will need
ADS-R.

FAA Response: Concur. ADS-R was baselined for situational awareness as part of the essential
services ISD in November 2008, before reaching ISD extensive testing and validation was
completed to ensure technical readiness. All sites will be deployed with ADS-R capability by
2014. When high value ADS-B ‘in’ applications are baselined ADS-R will be reassessed, which
will include all necessary testing and validation.

Recommendation 9. Determine and obtain the necessary in-house expertise to effectively
monitor the contractor’s efforts and oversee the ADS-B ground infrastructure over the long term.

FAA Response: Concur. The FAA is continually assessing the extent to which various skill sets
are necessary as part of its annual Acquisition Workforce Planning. In addition, there were two
SBS ISD action plans related to staffing identified and approved within Category 8 of the ISD
checklist which will be closed by June 2011.

Overall, the OIG report provides a useful summary of the issues and perspectives involved with
ADS-B development. The FAA appreciates the time that the OIG office took to carefully review
the ADS-B program and to speak with Agency officials.




Appendix. Agency Comments
